   August 11, 2005




Acquisition
Contract Award and Administration
for the Improved Navy Lighterage
System
(D-2005-098)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DCMA                  Defense Contract Management Agency
INLS                  Improved Navy Lighterage System
JMLS                  Joint Modular Lighterage System
NAVFAC                Naval Facilities Engineering Command
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                               400 ARMY NAVY DRIVE
                          ARLINGTON, VIRGINIA 222024704



                                                                          August 11,2005
MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
SUBJECT: Report on Contract Award and Administration for the Improved Navy
         Lighterage System (Report No. D-2005-098)

        We are providing this report for information and use. This report is the second
and last report of audits performed in response to a congressional request and allegations
made to the Defense Hotline from one complainant. No written response was required,
and none was received. Therefore, we are publishing this report in final form.
        We appreciate the courtesies extended to the staff. For additional information on
this report, please contact Ms. Kimberley A. Caprio at (703)' 604-9202 @SN 664-9202)
or Mr. Benjamin A. Mehlrnan at (703) 604-9291 @SN 664-9291). See Appendix C for
the report distribution. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                           Richard B. ~olli&
                                       Assistant Inspector General
                                       for Contract Management
               Department of Defense Office of Inspector General
Report No. D-2005-098                                                     August 11, 2005
   (Project No. D2004-D000CB-0208.000)

                  Contract Award and Administration for the
                     Improved Navy Lighterage System

                                 Executive Summary

Who Should Read This Report and Why? DoD, contractor, and public officials and
personnel with interest in the Improved Navy Lighterage System and related modular
systems should read this report. The report addresses reliability and safety issues as well
as contract award and administration relating to the Improved Navy Lighterage System.

Background. This report is the second and last report of audits performed in response to
a request from Senator Pete V. Domenici and allegations made to the Defense Hotline
from one complainant. The first report addressed allegations relating to the Army
Modular Causeway System. This report addresses 12 allegations relating to the
Improved Navy Lighterage System. The allegations stated that the Navy based a key
Improved Navy Lighterage System component, the “side connector,” on a faulty,
unreliable, and unsafe design. In addition, the allegations stated that the procuring
activity, the Naval Facilities Engineering Command, cultivated an uncompetitive
contracting process, and the Defense Contract Management Agency failed to manage the
Improved Navy Lighterage System contracts.

From August through October 2003, the Naval Facilities Engineering Command awarded
two contracts related to the Improved Navy Lighterage System, one for the procurement
of the system modules and one for the procurement of the system side connectors for a
total of $413 million. First article testing of the Improved Navy Lighterage System side
connector was performed from June through September 2004. Operational evaluation
testing for the Improved Navy Lighterage System is scheduled to begin February 2006.

Results. We did not substantiate seven allegations regarding the Improved Navy
Lighterage System side connector design, reliability, and safety. We also did not
substantiate five allegations regarding the Naval Facilities Engineering Command
contract award or the Defense Contract Management Agency management of the
Improved Navy Lighterage System contracts.

Management Comments. We provided a draft of this report on June 15, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                  i

Background                                                        1

Objectives                                                        3

Finding
     Improved Navy Lighterage System Side Connector Allegations   4

Appendixes
     A. Scope and Methodology                                     11
          Prior Coverage                                          12
     B. Improved Navy Lighterage System Components                13
     C. Report Distribution                                       16
Background
           This report is the second of two reports resulting from a congressional request
           from Senator Pete V. Domenici and allegations made to the Defense Hotline. The
           allegations relate to the acquisition of the Improved Navy Lighterage System
           (INLS). The INLS is a floating pier that comprises powered and nonpowered
           floating platforms assembled from interchangeable modules. The INLS is used to
           transfer cargo from sealift ships to shore areas where conventional port facilities
           may be damaged, inadequate, or nonexistent.

           The allegations stated that a key component, the INLS connector (side connector),
           was based on a faulty, unreliable, and unsafe design. In addition, the allegations
           stated that the procuring activity, the Naval Facilities Engineering Command
           (NAVFAC), cultivated an uncompetitive contracting process, and Defense
           Contract Management Agency (DCMA) failed to manage the INLS contracts.

           Improved Navy Lighterage System. The INLS program was developed as a
           result of the Joint (Army and Navy) Modular Lighterage System (JMLS)
           Advanced Concept Technology Demonstration program that took place from
           1997 through 2000. The JMLS was to provide configurable platforms to move
           supplies and equipment from ship to ship and from ship to shore. The Advanced
           Concept Technology Demonstration program tested and analyzed the JMLS
           platforms and concluded the JMLS would not meet Navy “logistics-over-the-
           shore” requirements.1 In August 2001, the Army decided to withdraw from the
           program. NAVFAC investigated improvements to the JMLS, and starting in
           September 2002, proceeded under the INLS name.

           The INLS consists of four platforms: roll-on roll-off discharge facility, causeway
           ferry, floating causeway, and warping tug. Each platform comprises a group of
           interoperable and interchangeable floating modules. The INLS side connector is
           used to connect modules to create the two subsystems: roll-on roll-off discharge
           facility and floating causeway. The following picture depicts an INLS side
           connector. See Appendix B for more information on the four INLS platforms.




1
    The Navy “logistics-over-the-shore” is the loading and unloading of ships without the benefit of fixed
    port facilities in either friendly or undefended territory, and in time of war, during phases of theatre
    development.



                                                        1
                           INLS Side Connector



INLS Program Management. The NAVFAC Sealift Support Program Office is
the INLS program manager responsible for day-to-day management of the INLS
program and oversight at the INLS contractor’s facility. DCMA was responsible
for the materiel inspection and acceptance for NAVFAC from the INLS side
connector contractor and for administrative functions on both INLS contracts.

INLS Contracts. NAVFAC awarded two contracts related to the INLS: one for
the procurement of the INLS platforms and one for the procurement of the INLS
side connectors.

       •   On August 12, 2003, NAVFAC awarded a firm-fixed-price contract
           (N00025-03-C-0002) for a base year and up to four option years to
           Marinette Marine Corporation, Marinette, Wisconsin, for
           $404,815,320 for procurement of the INLS platforms.

       •   On October 2, 2003, NAVFAC awarded a firm-fixed-price contract
           (N00025-03-C-0001) for a base year plus up to 5 option periods to
           Oldenburg Lake Shore, Inc., Kingsford, Michigan, for $7,998,986 for
           procurement of up to 159 side connectors and eighteen 20-foot
           containers for storage and shipping the side connectors.

       •   On February 23, 2004, NAVFAC issued engineering change proposal
           number 001 (N00025-03-C-0001 modification P00005) to Oldenburg
           Lake Shore for $136,432. The engineering change proposal added a
           remote control station cart to the INLS crew shelter, which automated
           the locking and unlocking of the side connector. Modification P00005
           also reduced the amount of side connectors procured from 159 to 144
           and added 6 remote control station carts.

       •   On August 27, 2004, NAVFAC issued engineering change proposal
           number 002 (N00025-03-C-0001 modification P00009) to Oldenburg
           Lake Shore for $14,425. The engineering change proposal replaced
           side connector antifouling paint with an inorganic zinc paint to better
           guard against marine growth and corrosion.



                                     2
    First Article Testing. On October 8, 2004, Oldenburg Lake Shore provided to
    NAVFAC a contractually required report summarizing INLS side connector first
    article testing performed from June through September 2004. First article testing
    included acceptance testing of the side connector first production unit, which
    included checking the quality and measurement of the welding to ensure the
    welding was within the tolerance, and testing of connector assembly and
    associated operating component functional requirements. First article testing also
    included an immersion test of the side connector in salt water.

    Operational Evaluation. NAVFAC will begin operational evaluation testing on
    the INLS in February 2006. NAVFAC delayed the operational evaluation,
    originally scheduled for third quarter FY 2005 completion, due to logistical
    problems (iced-over INLS modules at the Marinette Marine, Wisconsin testing
    location) and schedule delays in INLS fabrication. NAVFAC expects INLS full-
    rate production to commence in the fourth quarter FY 2006 upon operational
    evaluation completion and approval. NAVFAC program officials stated that they
    are trying to mitigate time delays and maintain the full operational deployment
    date of the system for November 2009.


Objectives
    Our overall audit objective was to determine whether the Navy and DCMA
    properly followed contract award and administration policies and procedures for
    acquisition of the INLS. Specifically, we evaluated the allegations that the Navy
    based the INLS side connector component on a faulty, unreliable, and unsafe
    design; that the Navy procuring activity cultivated an uncompetitive contracting
    process; and that DCMA failed to manage INLS contracts. See Appendix A for a
    discussion of the scope and methodology and for prior coverage related to the
    objectives.




                                        3
            Improved Navy Lighterage System Side
            Connector Allegations
            We did not substantiate allegations regarding the INLS side connector.
            Specifically, we did not substantiate the allegations regarding:

                    •   the design, reliability, and safety of the side connector used to
                        fasten together INLS components;

                    •   the contract award; and

                    •   the DCMA management of INLS contracts.

            We did not substantiate the allegations because of technological
            improvements with the INLS side connector and a fair and competitive
            contract award and administration process.


Allegations Related to the INLS
     The complainant identified numerous allegations that stated that the side
     connectors used to fasten components of the INLS were based on a faulty design
     and were unreliable and unsafe. The complainant also alleged that the procuring
     activity cultivated an uncompetitive contracting process and that DCMA failed to
     manage the INLS contracts. We consolidated the allegations into three
     categories: side connector design, reliability, and safety; contract award; and
     management of the INLS contracts.

     INLS Side Connector Design, Reliability, and Safety
     Seven allegations related to the INLS side connectors design, reliability, and
     safety. We did not substantiate any of the seven allegations. See below for the
     specific allegations.

     Faulty Design Allegation. The allegation stated that the INLS side connector
     originated from a failed JMLS cam and ball connector and contained over
     1,000 parts that could lead to connector failure.

     Audit Results. We did not substantiate the allegation. The cam and ball was a
     component of the JMLS connector, and the cam and ball required manual
     connection to activate the connection. When the Navy discontinued the JMLS
     program and initiated the INLS program, the Navy replaced the cam and ball
     configuration with a hydraulic system. The Navy replaced the cam and ball
     configuration because the operational requirements document required the INLS
     to be capable of meeting force projections and sustainment requirements in
     environments greater than “Sea State 2” for the movement of cargo to and from
     commercial and strategic sealift ships. The operational requirements document
     defined Sea State 2 as wave heights from 1.5 to 3 feet and wind speeds ranging


                                          4
from 5 to 12.6 knots. NAVFAC included the hydraulic configuration requirement
in the INLS side connector solicitation to meet the sea state requirement.

On February 23, 2004, NAVFAC contract N00025-03-C-0001 modification
P00005 revised the design of the INLS side connector from a manual locking
system to a faster automated locking system. The INLS side connector included
less than 100 parts, not 1,000 parts as alleged.

Side Connector Tolerances Allegation. The allegation stated the INLS side
connector would not maintain tolerance of locking components and would not
connect properly to INLS platform modules, thereby leading to frequent
maintenance.

Audit Results. We did not substantiate the allegation. The solicitation
established tolerance requirements as part of the testing process. Oldenburg Lake
Shore requested and NAVFAC approved engineering change proposal
number 001 (N00025-03-C-0001 modification P00005) revising the side
connector to an automated operation device that will help stabilize the INLS
platform faster during the connection process to prevent side connector tolerance
loss.

NAVFAC program officials stated that sealift ships will perform maintenance
checks every 3 years on the INLS in addition to annual technical inspections.
NAVFAC and the Oldenburg Lake Shore completed first article testing of the
side connector weld requirements in June 2004; the first article test report noted
that welds were within tolerance requirements. In addition, DCMA noted in its
acceptance inspection of contractor connector delivery that the contractor met all
connector tolerance requirements. NAVFAC program officials stated that INLS
contractors compensated for potential tolerance distortions during the welding
process.

Side Connector Life-Cycle Costs Allegation. The allegation stated that the
Navy would incur combined side connector life-cycle costs of approximately
$400 million.

Audit Results. We did not substantiate the allegation. The NAVFAC program
office estimated the total INLS life-cycle costs to be $665.5 to $732.1 million.
The total life-cycle cost consisted of research, development, test and evaluation,
procurement, and operation and support of all INLS components. We calculated
that the side connector represented only a small portion of the INLS procurement:
about 2 percent of the total initial procurement cost of approximately
$413 million. NAVFAC did not keep separate life-cycle costs on the side
connector because the connector was Government-furnished equipment provided
to the INLS contractor. We concluded that side connector life-cycle costs would
not likely exceed a proportionate 2 percent amount of INLS life-cycle costs; thus




                                     5
           no more than $13.3 to $14.6 million.2 The complainant could not provide support
           for the claimed side connector life-cycle cost cited in the allegation.

           Use of Heavy Greases Allegation. The allegation stated that the side connectors
           used heavy greases and hydraulic oils that were harmful to the marine
           environment.

           Audit Results. We did not substantiate the allegation. The side connector does
           not operate using heavy greases that are harmful to the marine environment.3 The
           side connector uses hydraulic oil during operation. Each side connector holds
           approximately 1 and 1.5 gallons of hydraulic oil. NAVFAC and the side
           connector contractor have taken a number of steps to minimize oil leaks that
           could harm the marine environment. Specifically, the NAVFAC design engineer
           stated that the hydraulic fluid is “self-contained” in the side connector hydraulic
           cylinders and is maintained by high-pressure tubing and connections. During first
           article testing, the hydraulic cylinder was successfully hydro-tested at 1.5 times
           the normal operating pressure. In addition, Oldenburg Lake Shore has mitigated
           oil leaks by designing zero-leak fittings and a check valve inside the connector to
           stop leaks. Also, an “Emergency Stop” button allows operational personnel to
           shut off power to the connector hydraulic power unit if leaks are noticeable.

           Use of Side Connectors in Salt Water Allegation. The allegation stated that the
           side connector was not appropriate for use in salt water and was not adequate to
           protect against corrosion, fouling, and marine growth.

           Audit Results. We did not substantiate the allegation. A NAVFAC-approved
           engineering change replaced connector antifouling paint with an inorganic zinc
           paint to better guard against marine growth and corrosion. Oldenburg Lake Shore
           completed an environmental saltwater immersion test in September 2004. The
           submerged prototype connector was in a saline solution representative of ocean
           water. After the immersion period, disassembly of the connector revealed spots
           of corrosion, but only where inorganic zinc paint was not applied. NAVFAC
           program officials stated that any potential corrosion will be resolved in
           subsequent production cycles by applying inorganic zinc paint prior to fabrication
           of the side connector at no additional cost.

           Side Connector Assembly and Disassembly Allegation. The allegation stated
           that the side connectors were unsafe to assemble or disassemble in water and
           would require the use of cranes and forklifts that increase the risk of injury to
           sailors.

           Audit Results. We did not substantiate the allegation. The NAVFAC program
           officials stated that the Navy uses cranes and forklifts on shore to assemble or

2
    NAVFAC awarded the INLS side connector contract for $7,998,986, and the INLS contract for
    $404,815,320, for a total INLS procurement of $412,814,306. Dividing the INLS side connector
    procurement of $7,998,986 by the total INLS procurement of $412,814,306 resulted in approximately
    2 percent of the total INLS procurement. Multiplying the estimated total INLS life-cycle costs of $665.5
    to $732.1 million by 2 percent resulted in a proportionate amount of $13.3 to $14.6 million.
3
    The side connector engagement bullets ride in a LUBRON sleeve, a permanently lubricated bearing
    designed for submerged use in a marine environment.



                                                       6
           disassemble the side connectors. When INLS module assembly is required at sea,
           INLS operators would use the remote control station cart to perform automated
           locking and unlocking of the side connector, thus mitigating risk of injury to
           sailors during the connection process.

           INLS Module Components Allegation. The allegation stated that INLS module
           sides and “slots” were hazardous, had sharp edges, and would catch on piers.
           The allegation also stated that corrective “slot closures”4 would be a safety risk to
           install or remove.

           Audit Results. We did not substantiate the allegation. We observed at the
           Marinette Marine facility that the slot closures covered the module side slots on
           the INLS to prevent hazardous conditions and were not a safety risk to install or
           remove.

           Contract Award
           Three allegations related to the INLS contract award. Specifically, the allegations
           claimed that NAVFAC was cultivating an uncompetitive contracting process. We
           did not substantiate any of the three allegations and found no indication that the
           contracting process was uncompetitive. The specific allegations are discussed
           below.

           Government Assumption of Risk Allegation. The allegation stated that the
           Government inappropriately assumed total risk for the design of the INLS side
           connector because the side connector was built under one contract while the side
           connector pockets were built under a separate contract.

           Audit Results. We did not substantiate the allegation. The Government assumed
           appropriate risk for the design of the INLS side connector. The NAVFAC Sealift
           Support Program Office awarded the INLS side connector and the INLS modules
           under separate contracts and contractors. NAVFAC program officials believed
           risk would be greater if one contractor designed both the INLS side connector and
           the INLS modules. NAVFAC program officials also stated that it was in the best
           interest of and less risky for the Government to develop and procure the side
           connectors, and provide them as Government-furnished equipment to the prime
           contractor to facilitate assembly tests.

           The separate design and procurement of the INLS side connector mitigated many
           of the technical risks associated with the detail design and construction of the
           low-rate initial production units. By breaking out the side connector
           procurement, NAVFAC reduced technical risk by removing the unique
           component that was not part of a normal barge construction effort. The NAVFAC
           acquisition strategy noted that the INLS side connector was only required for side
           connection of the roll-on roll-off discharge facility and the floating causeway
           platforms; to preserve the procurement schedule, the design and manufacturing of
           the INLS side connector was separated from the overall INLS procurement.


4
    Slot closures are caps that cover the end points of the unattached portions of the INLS modules.



                                                       7
NAVFAC INLS Design Selection Allegation. The allegation stated that
NAVFAC selected a side connector design only to favor a particular contractor
and had no intention of making an evaluation of the best INLS side connector.

Audit Results. We did not substantiate the allegation. The NAVFAC methods to
evaluate INLS side connector proposals used full and open competitive
procedures and consisted of one solicitation with the intent to award one
firm-fixed-price contract for the INLS side connector.

In response to the solicitation, the NAVFAC Sealift Support Program Office
received seven proposals for the INLS side connector contract. The solicitation
stated that the proposals were to be evaluated on technical evaluation factors and
price. The technical evaluation factors were manufacturing capabilities,
management approach, past performance, and small business subcontracting plan.
The technical evaluation factors were considered of equal importance, and when
combined were considered significantly more important than price. The technical
evaluation board used a five-rating scale ranging from “outstanding” (the
proposal met the fullest expectations of the Government and contained no
weaknesses or deficiencies), “excellent” (the proposal was fully responsive with
no significant deficiencies), “good” (the proposal was adequately responsive with
minor deficiencies), “marginal” (the proposal contained weaknesses in several
areas and moderate risk that the contractor would not be successful), to “poor”
(the proposal did not address specific factors).

Based on the technical evaluation board and cost board findings, the source
selection board determined that three potential contractors (Bidders A, B, and C)
were in the competitive range. The technical evaluation board evaluated the
remaining three bidders based on four technical evaluation factors. The technical
evaluation board rated the overall technical evaluations of Bidders B and C as
“outstanding,” while Bidder A’s overall technical evaluation was rated
“excellent.” Therefore, the deciding evaluation factor was price. NAVFAC
awarded the INLS side connector contract to Bidder C, Oldenburg Lake Shore,
based on the best value to the Government. Based on review of the source
selection documents, NAVFAC consistently applied the source selection criteria
in awarding the INLS side connector contract to Oldenburg Lake Shore.

NAVFAC Side Connector Selection Allegation. The allegation stated that
NAVFAC chose to use an inappropriate INLS side connector.

Audit Results. We did not substantiate the allegation. NAVFAC chose to use
the Government-furnished design for the INLS side connector. The NAVFAC
selection of an INLS design did not favor any particular contractor. Rather, the
INLS side connector was designed by the Naval Surface Warfare Center,
Carderock Division, Maryland. The Center maintains a Government patent on the
INLS side connector design.

Oldenburg Lake Shore was contractually required to fabricate side connectors for
the INLS at the Oldenburg Lake Shore facility in accordance with
Government-approved drawings. However, the contractor was permitted to make
improvements in the side connector with Government approval through an
engineering change proposal process. The NAVFAC program office issued two


                                    8
engineering change proposals to the side connector contractor. Engineering
change proposal 001 (N00025-03-C-0001, modification P00005) changed the
manual locking and unlocking of the INLS side connector to an automated
locking and unlocking system with the use of a remote control station cart.
Engineering change proposal 002 (N00025-03-C-0001, modification P00009)
changed the use from antifouling paint to inorganic zinc paint on the INLS side
connector.

DCMA Management of INLS Contracts
The NAVFAC contracting officer required DCMA to perform contract
administration functions for INLS contracts, N00025-03-C-0001 and
N00025-03-C-0002, including engineering surveillance to assess compliance with
contractual terms for schedule, cost, and technical performance in the areas of
design, development, and production. The NAVFAC contracting officer also
required DCMA to perform quality assurance functions for the two contracts.
DCMA audits, inspection logs, inspection and acceptance reports, and other
related documents demonstrated that DCMA adequately performed its oversight
duties of the contractors’ work.

Two primary allegations related to DCMA management of the INLS contract
number N00025-03-C-0002. We did not substantiate either allegation. The
specific allegations are discussed below.

DCMA Oversight of Connector Pocket Machining Allegation. The allegation
stated that DCMA permitted Marinette Marine Corporation to machine connector
pockets prior to fabrication. The complainant claimed that a machining before
fabrication process would save the contractor about $50 million on its fixed-price
contract.

Audit Results. We did not substantiate the allegation. DCMA was responsible
for materiel inspection. The INLS contract solicitation required potential
contractors to perform detailed design and production in accordance with system
specifications. The solicitation required the contractor to prepare a complete set
of production drawings and design calculations necessary for production of the
system, with emphasis on minimizing operating costs. However, the solicitation
did not specifically require machining connector pockets after fabrication.
According to the DCMA quality assurance personnel, machining prior to
fabrication involves machining metal in smaller pieces, which is less expensive.
In addition, Marinette officials stated that having the ability to machine the INLS
module components before fabrication provided the company with a
technological advantage in the market place. The complainant could not provide
support for the alleged $50 million savings.

DCMA Review of INLS Connector Tolerance Requirements Allegation. The
allegation stated that DCMA allowed Marinette Marine Corporation to be out of
compliance with the contract drawings regarding connector pocket tolerances.

Audit Results. We did not substantiate the allegation. DCMA monitored
contractor performance and performed general inspections and quality assurance


                                     9
reviews as required. DCMA verified and inspected INLS equipment to ensure
compliance with contract specifications. In addition, as a part of the audit, a DoD
Office of Inspector General engineer conducted a review of the INLS platform
and concluded no tolerance problem existed.




                                    10
Appendix A. Scope and Methodology
   We performed this audit to examine allegations made to the Defense Hotline and
   in response to a congressional request made by Senator Pete V. Domenici that the
   INLS side connector component was based on a faulty design and had reliability
   and safety issues. Additional allegations were that the procuring activity,
   NAVFAC, cultivated an uncompetitive contracting process, and that DCMA
   failed to manage INLS contracts.

   We collected, reviewed, and analyzed documents dated from July 1977 through
   April 2005. Specifically, we evaluated INLS contract actions, including contract
   documents and modifications, engineering change proposals, related solicitations,
   source selection plans, technical evaluation board documents, pre- and
   post-negotiation memorandums, price analyses, and price evaluation reports.

   We reviewed applicable contracting regulations including the Federal Acquisition
   Regulation, the Defense Federal Acquisition Regulation Supplement, Naval
   Facilities Acquisition Supplement, Navy Acquisition Procedures Supplement, and
   the Defense Logistics Agency Regulation.

   We also reviewed selected INLS-related technical manuals including the INLS
   Specification, Test and Evaluation Master Plan, Operational Requirements
   Document, Acquisition Strategy Plan, Acquisition Logistics Support Plan, and
   First Article Test reports. We also reviewed DCMA materiel inspections and
   receiving reports, and other technical and programmatic reports and documents.

   We interviewed personnel from NAVFAC, Naval Surface Warfare Center,
   DCMA, and contractors responsible for the INLS program as well as the
   complainant to obtain clarification of the Defense Hotline allegations.

   We performed this audit from July 2004 through May 2005 in accordance with
   generally accepted Government auditing standards. The audit scope was limited
   to the allegations made on INLS contracts and did not include a review of the
   management control program.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Technical Assistance. We obtained assistance from a mechanical
   engineer of the Mechanical Engineering Branch, Technical Assessment Division,
   Office of Inspector General to assist the auditors in understanding the technical
   requirements for the material and function of the side connector, as well as
   determining whether Navy contractors provided a system that met specifications
   and functions outlined in the contract.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Contract Management high-risk area.




                                       11
Prior Coverage
    During the last 5 years, the DoD Inspector General (DoD IG) has issued one
    report on related allegations pertaining to the Army’s Modular Causeway System,
    and two reports discussing Government source inspections and Government
    acceptance procedures for contractor parts. Unrestricted DoD IG reports can be
    accessed at http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2005-021, “Contract Award and Administration for
    Modular Causeway Systems,” November 22, 2004

    DoD IG Report No. D-2004-011, “Government Source Inspections,” October 15,
    2003

    DoD IG Report No. D-2003-065, “Allegations Concerning Government
    Acceptance Procedures for a Contractor's Parts,” March 21, 2003




                                      12
Appendix B. Improved Navy Lighterage System
            Components
   The INLS is a collection of interoperable and interchangeable components that is
   the primary means for the Navy to transfer cargo from strategic sealift ships to
   shore areas where conventional port facilities may be damaged, inadequate, or
   nonexistent. The INLS consists of powered and nonpowered floating modules
   and barges that can be assembled into the following four platforms:

          •   the roll-on roll-off discharge facility, which supports the discharge
              ramp from the cargo ship and serves as a pier to transfer rolling stock
              to a barge;

          •   the floating causeway, which supports the discharge ramp from the
              cargo ship and transfers rolling stock across undeveloped shoreline;

          •   the causeway ferry, which is used to transport cargo from ship to shore
              or to the floating causeway.

          •   the warping tug, which is used for assembling, towing, anchoring, and
              salvaging operations; and

   See Figures 1 through 4 for pictures of each of the INLS platforms.




       Figure 1. Roll-On Roll-Off                    Figure 2. Floating Causeway
           Discharge Facility




                                       13
      Figure 3. Causeway Ferry                       Figure 4. Warping Tug



INLS side connectors connect the individual modules or barges that make up the
roll-on roll-off discharge facility and the floating causeway. The side connector
is a two-trapezoidal box structure that houses eight bullets at top and bottom for
connection. These eight bullets work in pairs and move inward or outward by
hydraulic cylinders with controls at the topside of the connector. Each bullet
engages with a female socket that conforms to the shape of the bullet. The female
sockets are installed on the combination module. The objective is to use four side
connectors holding together, side-to-side, two combination modules. For each
connector, all eight bullets engage the female sockets to form a rigid joint. The
hydraulic power is supplied by flexible quick disconnect hoses that connect to the
top of the side connectors.

The side connector system receives its power (hydraulic and electric) from the
containerized crew shelter. The remote control station cart connects to the crew
shelter by two hydraulic hoses, an electrical power cable, and an electrical control
cable. The remote control station cart interfaces with and controls the side
connectors.

The remote control station cart is a single structure allowing for mounting of
remote hydraulic power unit components and assemblies. The cart includes an
electrical enclosure mount to house the proportional valve driver card and control
circuitry. The manifold includes an electrically operated valve with manual
override that provides for circulation of oil for purging air or warm-up.

The remote control station, located on the remote control station cart, incorporates
all electrical controls and gauges for use by the operator. The remote control
station provides for operation and monitoring by one operator, is portable, and
interfaces to the cart through a flexible interface cable no longer than 10 feet in
length. The remote control station cart interfaces with the side connector by using
a multifaster connector that engages the four hydraulic lines and any electrical
control wires in one effort. A remote control station indicator light shows that the
hydraulic power unit is operating and that the bullets are engaged. See Figure 5
for a picture of the INLS side connector system.




                                     14
                    Figure 5. Rigid Side Connector and
       Remote Control Station Cart Assembly




Figure 5. INLS Side Connector System and Remote Control Station Cart




                                 15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Naval Facilities Engineering Command

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform


                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Kimberley A. Caprio
Benjamin A. Mehlman
Robert M. Sacks
Linh Truong
Daniel L. Messner
Cecil B. Tucker
Chandra P. Sankhla
Jillisa H. Milner
